                                                 NAnONAL SCIENCE FOUNDAnON
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESnGAnONS

                                           CLOSEOUT MEMORANDUM

Case Number: 110060027                                                                      Page 1 of 1




        OIG opened this investigation based on an allegation that purchase cards at a University! are
        abused and that funds from an NSF award2 were used to purchase equipmene without going
                                                                                                      4
        through a competitive bidding process. An audit was performed by a State Auditor's Office
                                                   5
        and this matter was reviewed and resolved.

         After reviewing documentation provided by the complainant, reviewing the NSF proposal and
         audit report, and after consultation with NSF officials6 on this matter, there appears to be no
         indication of fraud or misuse of NSF grant funds in this matter. NSF officials stated that
         approval was not required from NSF when the University changed its vendor selection process,
         the procurement action did not affect the award, and was not a significant factor in
         recommending that the award be funded. Since this matter was already addressed and resolved
         by the Audit Report and University, and NSF has no objection, there is no issue to pursue ..
         Therefore no further action is required by NSF/OIG on this matter

         This investigation is closed.




NSF OIG Form 2 (11102)
